HHS/OIG, Audit -"Review of Medicaid Drug Rebate Collections State of Vermont Office of Vermont Health Access
as of June 30, 2002,"(A-01-03-00012)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Collections State of Vermont Office of Vermont Health Access as of June 30, 2002," (A-01-03-00012)
December 26, 2003
Complete Text of Report is available in PDF format (275 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to evaluate whether the State agency had established adequate accountability and internal
controls over the Medicaid drug rebate program. We found that the State agency generally followed adequate accounting procedures
and had sufficient controls over the drug rebate program as required by Federal rules and regulations.  In addition,
we noted that the Federal share of drug rebate amounts, for the most part, was properly offset from Federal Medicaid reimbursement.  In
this regard, we noted that the State agency needs to improve its monitoring on overdue drug rebate receivables to ensure
that all interest applicable to these receivables is collected and reported properly.  We also found that the State
agency needs to improve its procedures for reconciling and reporting its pending drug rebate amounts on reports to the
Centers for Medicare and Medicaid Services (CMS).  We recommended that the State agency establish policies and procedures
for the proper monitoring and collection of interest owed by manufacturers for late, disputed, and unpaid drug rebate amounts,
and develop a pending drug rebate ageing schedule for use in the proper preparation of the CMS report.  The State
agency agreed to work with EDS, its contractor, in implementing our audit recommendations.